No. 19- 1130

IN THE

Sufiieme fault

t6 e United States

DALE DANIELSON, ET AL.,
Petitioners,
v.

JAY ROBERT INSLEE, IN ms OFFICIAL CAPACITY AS
GOVERNOR OF THE STATE OF WASHINGTON, ET AL.,
Respon den ts.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify
that the Supplemental Brief In Opposition of Respondent
Washington Federation of State Employees, AFSCME
Council 28, AFL-CIO in the above entitled case complies
with the typeface requirement of Supreme Court Rule
33.1(b), being prepared in Century Schoolbook 12 point type
for the text and 10 point for the footnotes, and that the brief
complies with the word limit specified by Rule 33.1(g)(ii)
because it contains 192 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Dated: January 4, 2021

P. Case/Pitts
ALTSHULER BERZON LLP
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421-7151
cpitts@altber.com
Counsel for Respondent Washington
Federation of State Employees, AFSCME
Council 28, AFL-CIO

